Report No. DODIG-2012-127                September 10, 2012




           American Recovery and Reinvestment -
         Implementation of the Advanced Metering
   Infrastructure Requirements for Planning, Contractor's
        Performance, and Reporting Was Ineffective
Additional Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at auditnet@dodig.mil.

Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for
Auditing at auditnet@dodig.mil, or by mail:

                      Department of Defense Office of Inspector General
                      Office of the Deputy Inspector General for Auditing
                      ATTN: Audit Suggestions/13F25-04
                      4800 Mark Center Drive
                      Alexandria, VA 22350-1500




Acronyms and Abbreviations
AMI              Advanced Metering Infrastructure
CARs             Contract Action Reports
CATEX            Categorical Exclusion
CY               Calendar Year
CDRL             Contract Data Requirements List
DFARS            Defense Federal Acquisition Regulations Supplement
EPACT            Energy Policy Act
ESC              Engineering Service Center
FAR              Federal Acquisition Regulation
FEAD             Facilities Engineering Acquisition Division
FPDS             Federal Procurement Data System
FTE              Full-Time Equivalent
NAVFAC           Naval Facilities Engineering Command
NEPA             National Environmental Policy Act
NFAS             Naval Facilities Acquisition Supplement
OMB              Office of Management and Budget
OPNAVINST        Naval Operations Instruction
QA               Quality Assurance
SCAN             Specialty Center Acquisition NAVFAC
SW               Southwest
                               INSPECTOR GENERAL 

                              DEPARTMENT OF DEFENSE 

                              4800 MARK CENTER DRIVE 

                           ALEXANDRIA, VIRGIN IA 22350-1500 





                                                                      September I 0, 2012

MEMORANDUM FOR NAVAL INSPECTOR GENERAL

SUBJECT: American Recovery and Reinvestment Act- Implementation of the
         Advanced Metering Infrastructure Requirements for Planning, Contractor's
         Performance, and 'Reporting Was Ineffective
         (ReportNo. DODIG-2012-127)

We are providing this report for review and comment. Naval Facilities Engineering
Command Southwest officials did not have effective controls over the planning,
contractor's performance, and reporting of the Advanced Metering Infrastructure project,
vallied at $24.8 million. As a result, Navy lacks reasonable assurance that $24.8 million
of Recovery Act funds were appropriately justified and the installation of the meters was
properly planned. We considered management comments on a draft of this report when
preparing the final report.

DoD Directive 7650.3 requires that recommendations be resolved promptly. As a result
of management comments, we redirected draft Recommendation A and B.4 to the
Commander, Naval Facilities Engineering Command, and request comments on the final
report. Also, as a result of the management comments, draft Recommendation B.4 has
been renumbered as Recommendation B. I and draft Recommendations B. I, B.2, and B.3
have been renumbered to B.2.a, B.2.b, and B.2.c, respectively. The comments from the
Commander, Naval Facilities Engineering Command on Recommendations C.l, C.2, C.3,
C.4, and C.5 were responsive, and no further comments are required. However, we
request that the Commanding Officer, Naval Facilities Engineering Command
(NA VFAC) Southwest, provide additional comments on Recommendations B.2.a, B.2.b,
and B.2.c. Therefore, we request all comments in response to the final report by
October 10,2012.

If possible, send a portable document format (.pdf) file containing yom comments to
audros@dodig.mil. Comments provided to the final report must be marked and portion­
marked, as appropriate, in accordance with DoD Manual 5200.0 I. Copies of the
comments must contain the actual signature of the authorizing official for yom
organization. We are unable to accept the /Signed/ symbol in place of the actual
signature. If you arrange to send classified comments electronically, you must send them
over the SECRET Internet Protocol Router Network (SJPRNET). .

We appreciate the courtesies extended to the staff. Please direct questions to me at
(703) 604-8866 (DSN 664-8866).




                                             Alice F. Carey
                                             Assistant Inspector General
                                             Readiness, Operations, and Support
Report No. DODIG-2012-127 (Project No. D2011-D000LH-0160.000)                            September 10, 2012

                 Results in Brief: American Recovery and
                 Reinvestment Act–Implementation of the
                 Advanced Metering Infrastructure
                 Requirements for Planning, Contractor’s
                 Performance, and Reporting Was Ineffective
                                                                 clause 52.211-12, Liquidated Damages,” in eight of the
What We Did                                                      nine task orders. The contracting officer made a
Our objective was to determine whether DoD ensured               decision that the clause should not be included in the
the appropriate use of Recovery Act Funds by                     task orders. As a result, the absence of the liquidated
conducting adequate planning (planning was                       damages clause is a factor that may have contributed to
incorporated into this objective), contractor’s                  the delays in the AMI project.
performance, and reporting the Advanced Metering
Infrastructure (AMI) project, valued at $24.8 million.           Lastly, NAVFAC SW officials did not adequately
The AMI is a system that records customers’ energy               review data the contractor submitted to
consumption, collects and retrieves metering data                www.FederalReporting.gov, the central
(electric, gas, water, and steam), and transports the data       Government-wide data collection system for Recovery
back to a centralized data repository.                           Act projects.

What We Found                                                    What We Recommend
NAVFAC SW officials did not have effective controls              We recommend the Commanding Officer, Naval
in place to ensure adequate planning, contractor’s               Facilities Engineering Command:
performance, and accurate reporting of the project.
This occurred because NAVFAC SW officials                               issue guidance clearly defining the roles and
expedited the planning process to secure Recovery Act                    responsibilities to comply with the
funds and Engineering Service Center officials were                      requirements of EPACT 2005;
unclear about their roles and responsibilities for                      appoint a project and design manager to
meeting the requirements of Public Law 109-58,                           oversee the design and installation of
“Energy Policy Act of 2005,” (EPACT 2005),                               advanced meters; and
August 8, 2005. As a result, the Navy lacks reasonable                  review the performance of the officials
assurance that $24.8 million of Recovery Act funds                       responsible for not including the liquidated
were appropriately justified and the installation of the                 damages clause.
meters was properly planned.

NAVFAC SW officials also did not properly oversee                Management Comments and
the installation of the advanced meters. For example,
NAVFAC SW officials did not develop quality
                                                                 Our Response
assurance plans for the surveillance of the AMI project          Management comments were responsive for
because they were waiting for the contractor’s final             5 of 10 recommendations. As a result of management
design packages. As a result, there was no reasonable            comments, we redirected Recommendations A and B.4
assurance that the meters installed for the AMI project          to the Commander, NAVFAC, and request additional
will conform to the contract’s requirements.                     comments. Draft Recommendation B.4 has been
                                                                 renumbered as Recommendation B.1 and
In addition, NAVFAC SW officials did not ensure the              Recommendations B.1, B.2, and B.3 have been
contractor completed the nine task orders for the AMI            renumbered to B.2.a, B.2.b, and B.2.c. We request that
project within agreed upon milestones because they did           the Commanding Officer, NAVFAC SW, provide
not have an effective project manager to oversee the             additional comments to Recommendations B.2.a,
contractor’s performance. As a result, seven of the              B.2.b, and B.2.c. We request all comments to the final
nine task orders are at risk of missing the AMI timeline         report by October 10, 2012. Please see the
mandated in the EPACT 2005. Further, Specialty                   recommendations table on the back of this page.
Center Acquisition NAVFAC did not insert FAR

                                                             i
Report No. DODIG-2012-127 (Project No. D2011-D000LH-0160.000)      September 10, 2012


Recommendations Table

       Management                  Recommendations           No Additional Comments
                                  Requiring Comment                Required
Commander, Naval Facilities   A and B.1
Engineering Command
Commanding Officer, Naval     B.2.a, B.2.b, and B.2.c      C.1, C.2, C.3, C.4, and C.5
Facilities Engineering
Command Southwest


Please provide comments by
October 10, 2012.




                                               ii
Table of Contents
Introduction                                                                   1      

      Objective                                                                1      

      Recovery Act Background                                                  1

      Advanced Metering Requirements                                           2

      Naval Facilities Engineering Command Southwest Initiated the 

        Advanced Metering Infrastructure Project                               2

      Naval Facilities Engineering Command Needs Better Controls for 

        Managing the Advanced Metering Infrastructure Project                  3


Finding A. Advanced Metering Infrastructure Project Was 

Not Properly Planned                                                           5

      Improvements Needed for Planning Requirements                            5

      Planning Process Was Expedited                                           7

      Naval Facilities Engineering Command Generally Complied 

         With Energy Policy Act of 2005 Requirements                           7

      Naval Facilities Engineering Command Unclear on Roles and 

         Responsibilities Under the Energy Policy Act of 2005                   8

      Conclusion                                                               8

      Management Comments on the Finding and Our Response                      8

      Recommendations, Management Comments, and Our Response                   11 


Finding B. Oversight of the Contractor’s Performance Was Not Adequate          13 

      Oversight of Metering Infrastructure Needs Improvement                   13 

      Quality Assurance Plans Not Prepared                                     14 

      Design Packages Were Unavailable for Preparing Quality Assurance Plans   15 

      Monitoring of Project Milestones Was Ineffective                         15 

      Oversight Over Managing Milestones Was Ineffective                       18 

      Advanced Metering Infrastructure Base Contract Made Liquidated 

         Damages Clause Optional                                               19 

      Liquidated Damages Language Not in Task Orders                           19 

      Conclusion                                                               20         

      Recommendations, Management Comments, and Our Response                   20 


Finding C. Quality Reviews of Reported Data Were Not Adequate                  26 

      Recovery Act Reporting Requirements                                      26 

      Reviews of the Contractor’s Reports Need Improvement                     26 

      Data Quality Reviews Did Not Identify Reporting Errors                   28 

      Reasonableness of Reported Jobs Was Not Validated                        29 

      Procedures for Verifying Jobs Reported Were Ineffective                  30 

      Recovery Act Contract Actions Not Reported in Federal Procurement 

         Data System                                                           30 

Table of Contents (cont.)
      Naval Facilities Engineering Command Southwest Unaware Contract 

        Actions Not Listed in Federal Procurement Data System             31 

      Conclusion                                                          32     

      Recommendations, Management Comments, and Our Response              32 


Appendices

      A. 	Scope and Methodology                                           35 

            Use of Computer-Processed Data                                35 

            Use of Technical Assistance                                   36 

            Prior Coverage                                                36 

      B. Recovery Act Criteria and Guidance 	                             37 

      C. Advanced Metering Infrastructure Organizational Structure 	      39 

      D. Recovery Act Reporting 	                                         40 


Management Comments

      Department of the Navy 	                                            42 

Introduction
Objective
Our objective was to determine whether DoD and its Components are implementing
Public Law 111-5, “The American Recovery and Reinvestment Act of 2009,”
(Recovery Act), February 17, 2009. Specifically, we evaluated the effectiveness of
Government controls over the contractor’s performance and reporting on selected
projects, including contracts awarded to qualified small businesses. We expanded the
scope of this audit to include planning for the Advanced Metering Infrastructure (AMI)
project. The AMI contractor was not a qualified small business; therefore, the small
business evaluation was not included in our scope of work. See Appendix A for a
discussion of our scope and methodology as well as the prior coverage.

Recovery Act Background
The President signed the Recovery Act into law on February 17, 2009.

       The purposes of this Act include the following:
           (1) To preserve and create jobs and promote economic recovery.
           (2) To assist those most impacted by the recession.
           (3) To provide investments needed to increase economic efficiency by
               spurring technological advances in science and health.
           (4) To invest	 in transportation, environmental protection, and other
               infrastructure that will provide long–term economic benefits.
           (5) To stabilize State and local government budgets, in order to minimize
               and avoid reductions in essential services and counterproductive state
               and local tax increases.
               .        .       .        .        .       .        .
        The heads of Federal departments and agencies shall manage and expend the
        funds made available in this Act so as to achieve the purposes specified …
        including commencing expenditures and activities as quickly as possible
        consistent with prudent management.

Office of Management and Budget, Federal Acquisition
Regulation, and DoD Recovery Act Guidance
Criteria for planning and implementing the Recovery Act changed from
2009 through 2011 as the Office of Management and Budget (OMB) issued
11 memoranda and 1 bulletin to address the implementation of the Recovery Act. The
Federal Acquisition Regulation (FAR), DoD, and its Components issued additional
implementing guidance. See Appendix B for a list of Federal Government-level
Recovery Act criteria and guidance. OMB, FAR, and DoD guidance related to contractor
reporting is also discussed in Finding B.




                                                 1

DoD Recovery Act Program Plans
DoD received approximately $7.2 billion1 in Recovery Act funds for projects supporting
the Recovery Act’s purpose. In March 2009, DoD released expenditure plans for the
Recovery Act, listing DoD projects that received Recovery Act funds. The
Department of the Navy received approximately $1.2 billion in Recovery Act funds for
Operations and Maintenance; Military Construction; and Research, Development, Test
and Evaluation. Table 1 shows funding allocated for each appropriation.

                                   Table 1. Department of the Navy
                              Program-Specific Recovery Act Appropriations
                                      Appropriation                                       Amount
                                                                                        (in millions)
             Operations and Maintenance                                                    $815.9
             Military Construction                                                          280.0
             Research, Development, Test and Evaluation                                      75.0
                                           Total                                         $1,170.9

Of the $1.2 billion, the Department of the Navy allocated approximately $24.8 million
(Operations and Maintenance) for the installation of advanced meters throughout Naval
Facilities Engineering Command (NAVFAC) Southwest (SW), California.

Advanced Metering Requirements
Public Law 109-58, “Energy Policy Act of 2005” (EPACT 2005), August 8, 2005,
section 103, requires all Federal buildings to be metered by October 1, 2012, for the
purposes of efficient use of energy and reduction in the cost of electricity used.
EPACT 2005 also states, “each Agency shall use, to the maximum extent practical,
advanced meters or advanced metering devices that provide data at least daily and that
measure at least hourly consumption of electricity in the Federal buildings of the
agency.” Additionally, Executive Order 13423, “Strengthening Federal Environmental,
Energy, and Transportation Management,” March 29, 2007, section VI, part A, states, “to
the maximum extent practical, agencies should install metering devices that measure
consumption of potable water, electricity, and thermal energy in Federal buildings and
other facilities and grounds.” Unlike the EPACT 2005, which only requires replacing
electrical meters, the Executive Order requires replacing all electrical, gas, water, and
steam meters.

NAVFAC SW Initiated the AMI Project
In an effort to comply with the EPACT 2005, NAVFAC Engineering Service
Center (ESC) and NAVFAC SW officials initiated an AMI pilot project on
September 26, 2008, at Naval Base Ventura County in Port Hueneme, California. The


1
    DoD originally received $7.42 billion; however, Public Law 111-226, Title III, “Rescissions,”
    August 10, 2010, rescinded $260.5 million on August 10, 2010. The $7.2 billion does not include
    $4.6 billion for the U.S. Army Corps of Engineers.

                                                      2

purpose of the pilot project was to obtain lessons learned and incorporate them into the
remaining locations installing advanced meters. The completion date for the pilot project
was July 31, 2012. When Recovery Act funds became available, NAVFAC SW officials
decided not to wait for completion of the Naval Base Ventura County project to capture
the lessons learned from the pilot project and submitted the planning documents
necessary to receive Recovery Act funding to award nine task orders.

The Specialty Center Acquisition NAVFAC (SCAN) awarded the AMI task orders, and
NAVFAC SW administered the contract. This AMI project consisted of nine task orders
located throughout the Southwest region. See Appendix C for a depiction of the
organizational structure for the AMI project and a description of each office’s roles and
responsibilities.

AMI System Monitors Consumption
The AMI system is comprised of a meter (electric, gas, water, or steam), communication,
and meter data management. The meter has multiple communication protocols, two-way
communication that has wired or wireless Ethernet accessibility, and data acquisition
system to capture and retrieve metering data. The AMI system records customers’
energy consumption; collects metering data in 15-minute intervals; retrieves electric, gas,
water, and steam meters’ data at least every 4 hours; and transports the information back
to a centralized data repository. The figure below shows a picture of the advanced
electrical meter installation at Naval Base Point Loma, California.

                        Figure. Advanced Electrical Meter Installation
                        at Building 215 of Naval Base Point Loma




                         Source: DoD Office of Inspector General


NAVFAC Needs Better Controls for Managing the
AMI Project
DoD Instruction 5010.40, “Managers’ Internal Control Program (MICP) Procedures,”
July 29, 2010, requires DoD organizations to implement a comprehensive system of
internal controls that provides reasonable assurance that the programs are operating as
intended and to evaluate the effectiveness of the controls. We identified internal control
weaknesses regarding planning, contractor’s performance, and reporting. Specifically,
NAVFAC SW officials expedited critical planning steps to secure Recovery Act funds
for the project. Further, NAVFAC officials were unclear about their roles and


                                                    3

responsibilities for submitting the plan of implementation to the Secretary of Energy.
In addition, NAVFAC SW officials did not have an effective project and design
managers to oversee the contractor’s performance. The contracting officer decided not to
include a liquidated damages clause in the task orders. Finally, NAVFAC officials did
not detect and correct the contractor’s reporting errors during their data quality review
and did not include effective procedures to verify the reasonableness of the estimated
number of jobs reported by the contractor. We will provide a copy of the final report to
the senior official responsible for internal controls at NAVFAC SW.




                                            4

Finding A. AMI Project Was Not
Properly Planned
NAVFAC officials did not properly plan the AMI project. Specifically,

        	 NAVFAC SW officials did not prepare necessary documentation, such as an
           adequate economic analysis, detailed cost estimates, and National Environmental
           Policy Act (NEPA) documents, because they expedited the DD Form 1391,
           “Military Construction Project Data,” preparation and review process to secure
           Recovery Act funds for the project; and

        	 NAVFAC officials did not prepare a plan for Navy’s submittal to the Secretary of
           Energy regarding how the agency would implement the advanced meters, as
           required by EPACT 2005 because they were unclear about their roles and
           responsibilities for meeting the EPACT 2005 requirements.

As a result, the Navy lacks reasonable assurance that $24.8 million of Recovery Act
funds were appropriately justified and the installation of the meters was properly planned.

Improvements Needed for Planning Requirements
NAVFAC SW officials did not adequately prepare documentation to support the AMI
project. Naval Facilities Publication-442, “Economic Analysis Handbook,”
October 1993 identifies a six-step approach for developing an economic analysis:
(1) define the objective, (2) generate alternatives, (3) formulate assumptions, 

(4) determine costs and benefits, (5) compare costs and benefits and rank alternatives, 

and (6) perform sensitivity analysis. Additionally, the Chief of Naval Operations 

Instruction (OPNAVINST) 11010.20G, “Facilities Projects Instruction,” 

October 14, 2005, requires supporting documentation, such as a detailed cost estimate 

and NEPA documents, to fully justify sections on the DD Form 1391. However, 

NAVFAC SW officials did not fully meet these planning requirements. 


Economic Analysis Was Inadequately Prepared
Although NAVFAC SW officials generated alternatives, formulated assumptions, and
performed a sensitivity analysis, they did not complete three of the six steps required for
developing an economic analysis. NAVFAC SW officials did not define the objective,
determine and compare costs and benefits, and rank alternatives. NAVFAC SW officials
should have developed a well-defined objective statement that incorporated an easily
measurable standard of accomplishment. Also, NAVFAC SW officials should have
determined, compared, and ranked the costs and benefits once assumptions2 were




2
    Assumptions are explicit statements used to describe the present and future environment. Examples of
    assumptions include the discount rate, functional life of the utility meters, and the usefulness of the
    meters.

                                                        5

formulated. Without completing these steps, NAVFAC SW officials could not ensure
they selected the best alternative.

Detailed Cost Estimates Not Developed
NAVFAC SW officials did not prepare detailed cost estimates to support the
DD Form 1391 for the AMI project. OPNAVINST 11010.20G, section 2.2.10 states
“detailed cost estimates shall be accurately reflected in block 9 of the DD Form 1391
(special project document), itemizing specific quantities and unit costs for each item
rather than using lump sum costs.” Although block 9 of the DD Form 1391 included a
lump sum of $24.8 million for the AMI Southwest region, NAVFAC SW officials could
not provide supporting documentation for the $24.8 million. Without a detailed cost
estimate, NAVFAC SW cannot verify that the costs used for decisionmaking were
accurate.

NEPA Documents Not Prepared for the AMI Project
NAVFAC SW officials did not prepare required NEPA documents and attach them to the
DD Form 1391 to integrate environmental considerations into decisionmaking. Section
2.2.3 of OPNAVINST 11010.20G lists the NEPA documents as part of the
documentation needed to support the DD Form 1391. According to Secretary of the
Navy Instruction 5090.6A, “Environmental Planning for Department of the Navy
Actions,” April 26, 2004, the intent of NEPA is to ensure that environmental issues are
fully considered and incorporated into the Federal decisionmaking process to address
significant impact of the proposed action on the environment. The Instruction requires
that the NEPA be initiated as soon as possible to be an effective decisionmaking tool.
Although NAVFAC officials could have used a Categorical Exclusion (CATEX)3 to
exclude a proposed action from further analysis under NEPA, they did not prepare the
CATEX for eight of the nine task orders. Point Loma was the only Facilities Engineering
Acquisition Division (FEAD) to prepare a CATEX. NAVFAC SW officials stated that
they could not pursue a CATEX until they completed a 100 percent design and received a
more detailed scope. When NAVFAC SW received the 100 percent design, they
prepared the remaining eight CATEX, which were prepared over a year after the
submission of the DD Form 1391. By not completing the NEPA documents to support
the DD Form 1391, NAVFAC SW officials could not consider any adverse impact of the
AMI project on the environment.

According to a NAVFAC official, “the attachment of the actual NEPA document to the
DD Form 1391 document at the time of submission was not required based on the
accelerated requirements of the funding source.” According to the “Department of
Defense Facilities, Sustainment, Restoration, and Modernization Program Plan,”
May 15, 2009, the planning and design phase focused on “shovel ready” projects
identified in the Department’s Expenditure Plan on March 20, 2009. The designation


3
    CATEX is a published category of actions that do not have a significant impact on the human environment
    under normal circumstances. As a result, those actions do not require either an environmental assessment
    or an environmental impact statement.

                                                       6

“shovel ready” meant that planning was already completed on a project level. However,
NAVFAC officials did not provide a waiver to show they were exempted from
completing this critical planning step to support the DD Form 1391.

Planning Process Was Expedited
NAVFAC SW officials expedited the DD Form 1391 preparation and review process to
secure Recovery Act funds for the project. The enactment of the Recovery Act on
February 17, 2009, required DoD to submit a Facilities Sustainment, Restoration, and
Modernization expenditure plan within 60 days. DoD released the expenditure plan on
March 20, 2009, to comply with Recovery Act guidance. Subsequently, the Office of the
Deputy Under Secretary of Defense, Installations & Environment and the Office of the
Under Secretary of Defense, Comptroller issued joint guidance requiring the Services to
submit the Facilities Sustainment, Restoration, and Modernization expenditure plan by
March 27, 2009. To meet the 60-day requirements, on March 10, 2009, NAVFAC SW
officials prepared and submitted planning documentation for the AMI project to the
Commander, Naval Installations Command, to ensure the AMI project was included in
the expenditure plan to receive Recovery Act funding. There is no recommendation to
correct the planning documents deficiencies because the documents were submitted, the
project received Recovery Act funding, and installation of the meters had begun.

NAVFAC Generally Complied With
EPACT 2005 Requirements
NAVFAC officials generally complied with the EPACT 2005 requirements. The overall
goal of the EPACT 2005 is to reduce energy consumption by 20 percent per gross square
foot in Federal buildings from FY 2006 through FY 2015. One of the three requirements
to support the overall goal is to require each agency to submit an implementation plan for
advanced meters to the Secretary of Energy. NAVFAC officials complied with two of
the requirements in EPACT 2005. NAVFAC officials ensured that the contractor
installed advanced meters to the maximum extent practical. NAVFAC officials also
ensured that the contractor installed metering data for buildings or facilities responsible
for 95 percent of an installation’s total electric consumption and 75 percent of the
installation’s total water and gas consumption. NAVFAC officials selected these
facilities based on consumption data related to buildings’ energy usage during a fiscal
year. In addition, NAVFAC officials participated in establishing guidelines for AMI to
support the overall energy reduction goal as required by EPACT 2005.

Neither Navy officials nor NAVFAC personnel submitted the implementation plan to the
      Neither Navy officials nor       Secretary of Energy as required by EPACT 2005.
    NAVFAC personnel submitted         The implementation plan should have explained
    the implementation plan to the     how the Navy would designate personnel
         Secretary of Energy...        primarily responsible for achieving the advanced
                                       meter requirements and demonstrate and document
any finding that advanced meters were not practical. Although NAVFAC met two of the
three requirements, without this plan, Navy officials cannot show how they will achieve
the energy reduction goal as required by EPACT 2005.

                                             7

NAVFAC Unclear on Roles and Responsibilities Under
the EPACT 2005
NAVFAC officials were unclear about their roles and responsibilities for meeting the
EPACT 2005 requirements, such as preparing and submitting a plan to the Secretary of
Energy describing how the agency would implement the advanced meters. According to
the ESC project manager, he was not aware that NAVFAC ESC was responsible for
preparing a plan or providing input in response to the EPACT 2005. Nonetheless, the
ESC project manager stated the AMI Program Office at NAVFAC Headquarters was
responsible for preparing the Plan for Implementation. According to the AMI program
manager at NAVFAC Headquarters, he did not prepare the plan. He referred the audit
team back to the ESC project manager to obtain a copy of the plan. Neither the ESC
project manager nor the AMI program manager requested clarification on who was
responsible for preparing the plan. On February 17, 2012, a NAVFAC Headquarters
official stated that the Headquarters program manager should have referred this question
to the supported command at the Navy and Marine Corps Headquarters rather than the
subordinate executing agent. For clarity, NAVFAC officials should implement guidance
defining the roles and responsibilities for project and program managers to comply with
the EPACT 2005 requirements.

Conclusion
NAVFAC SW officials did not adequately follow planning requirements to ensure that
the AMI project receives proper planning and that Recovery Act funds were
appropriately justified. NAVFAC officials did not properly support the cost and
quantities in the DD Form 1391 and did not meet the EPACT 2005 planning requirement.
As a result, Navy lacks reasonable assurance that $24.8 million of Recovery Act funds
have been appropriately justified and the installation of the meters was properly planned.

Management Comments on the Finding and
Our Response

NAVFAC SW Comments
The Commander, NAVFAC (the Commander), responding on behalf of the Commanding
Officer, NAVFAC SW, did not agree with some sections of Finding A. Specifically, the
Commander disagreed with page 6 of the Finding. He stated that
OPNAVINST 11010.20G did not establish a rigid requirement to include NEPA
documentation in support of a 1391. He also stated that CATEXes for all actions were
not necessary to comply with NEPA and were consistent with standard practice. The
Commander further stated that the environmental values were included in project
discussions from the earliest conceptual stages. Additionally, that
OPNAVINST 11010.20G does list NEPA documents, among other documents, as
“[c]ommon attachments” to a 1391, and that it does not say that any of the documents
listed are required in every case and that there may be other common documents. The
Commander stated that the goal is not to assemble a certain list of documents, but to fully
communicate the location, scope, complexity, cost, and urgency of the project.

                                             8

The Commander stated that leaving CATEXes out of the 1391 package did not violate
any requirements and it is common practice not to have complete NEPA documentation
ready at such an early stage of planning because it would not be practical and the expense
would be exorbitant. He further explained that this is a major reason that NEPA requires
some type of proposal ready so that a meaningful environmental review can be done, and
“effort and dollars are not squandered analyzing remote and speculative possibilities.”
Additionally, he stated that NEPA regulations at 40 CFR 1502.5(a) (2011) says that the
“go-no go” stage is the point where the NEPA document needs to be prepared. He
explained that the Navy generally interprets “go-no go” as the point when the decision is
being made to implement or not to implement a proposal; that is usually the point of
award for a contract or a work order, but it is a fact specific determination.

The Commander stated that in the present case of the AMI project, environmental impact
considerations drove the decision as to which projects they would implement. He
explained that there was a need to move expeditiously with not enough time to do an
Environmental Assessment or an Environmental Impact Statement. He also stated that
given the minor nature of many of the proposed actions, it was easy to see that many of
the actions qualified for CATEXes and could go forward in the “go-no go” decision
context. He further explained that any action with potential significant adverse effects to
natural or cultural resources could not go forward. The Commander said that with input
from environmental experts, these decisions could have easily been made without final
written CATEXes. However, written CATEXes were in place by the time the “go-no go”
decision was made.

Our Response
We determined that NAVFAC SW officials did not prepare the required NEPA or
CATEX documents in time for them to be effective decision making tools. Although we
agree with the Commander’s comment that OPNAVINST 11010.20G, section 2.2.3
“Special Project Documentation” (the instruction) did not establish a “rigid” requirement
to provide NEPA documents in support of the DD Form 1391, it did establish a
requirement to provide NEPA documentation to the extent necessary to fully
communicate the location, scope, complexity, cost, and urgency of the project. The
instruction lists the NEPA documents and other attachments that commonly are required
to support the DD Form 1391. Therefore, to show that NAVFAC SW officials fully
considered and incorporated environmental issues into the decision making process at the
earliest possible time, NEPA documentation, or CATEXes, should have accompanied the
DD Form 1391. We agree that the lack of the CATEXes attached to the relevant
DD Form 1391 was not necessary to comply with NEPA but rather a requirement to
comply with the instruction. The Commander stated that environmental values were
included in project discussions from the earliest conceptual stages; however, the
CATEXes provided to the audit team were prepared and approved from 4 months to
2 years after the submission of the DD Form 1391. The Commander correctly cited the
requirements stated in the instruction, and we agree that the goal is not to assemble a
certain list. However, the instruction identifies 10 common attachments required to fully
communicate the location, scope, complexity, cost and urgency of the project. Although

                                            9

not all the common attachments listed may be necessary to comply with the instruction,
the NEPA documentation or CATEXes should have been prepared and attached to the
DD Form 1391.

SECNAVINST 5090.6A states that the NEPA process should be initiated at the earliest
possible time to be an effective decisionmaking tool in the course of identifying a
proposed action. Further, it states that a CATEX may be used to exclude a proposed
action from further analysis. Since NAVFAC SCAN personnel awarded the AMI base
contract in September 2008 and NAVFAC SW submitted the DD Form 1391 for
approval in March 2009, the NEPA documentation should have been completed either
before the award date or submission of the DD Form 1391 to be an effective
decisionmaking tool. The Commander did not fully cite the NEPA regulations contained
in 40 CFR sec. 1502.5. Specifically, 40 CFR sec.1502.5 (2011) states that an agency
shall commence preparation of an environmental impact statement as close as possible to
the time the agency is developing or presented with a proposal so that preparation can be
completed in time for the final statement to be included in any recommendation or report
on the proposal. Further, it states the statement shall be prepared early enough so that it
can serve practically as an important contribution to the decisionmaking process rather
than to rationalize or justify decisions already made. This regulation appears to align
with the SECNAVINST 5090.6A as it pertains to the preparation of an environmental
impact statement and the timing of when such statement should be prepared to comply
with NEPA.

In addition, NAVFAC’s interpretation of “go-no go” is not consistent with Navy
guidance. We agree that “go-no go” is the point when NAVFAC SW officials decide
whether to implement or not to implement a proposal. We disagree that this is usually
the point of award for a contract or a work order. Specifically,
40 CFR sec. 1508.23 (2011) states that proposal exists at that stage in the development of
an action when an agency has a goal and is actively preparing to make a decision on one
or more alternative means of accomplishing that goal. Therefore, the point of award for a
contract follows an agency’s decision to implement a proposal. In this case,
NAVFAC SCAN awarded the AMI contract in September 2008, after NAVFAC made
the decision to install advanced meters in the Southwest region and submit
documentation for Recovery Act funds. We also agree with the Commander’s
acknowledgment that the proposed actions qualified for CATEXes and could go forward
in the “go-no go” decision. However, the CATEXes were not in place by the time
NAVFAC SW officials made the “go-no go” decision. Even following the Commander’s
rationale and explanation of when NEPA documentation should be prepared,
NAVFAC SW did not prepare and approve the CATEXes at the time of the award.
Instead, NAVFAC SW officials prepared and approved the CATEXes about 10 months
to 3 years after the contract award. Although NAVFAC SW officials obtained and
considered input from an environmental expert, we disagree that NAVFAC SW could
have made these decisions without final written CATEXes, which NAVFAC SW should
have attached to the DD Form 1391 as stated in OPNAVINST 11010.20G, section 2.2.3.




                                            10 

Recommendations, Management Comments, and
Our Response

Redirected Recommendation
As a result of management comments, we redirected draft Recommendation A to the
Commander, Naval Facilities Engineering Command.

A. We recommend the Commander, Naval Facilities Engineering Command , issue 

guidance clearly defining the roles and responsibilities to comply with the 

requirements of Public Law 109-58, “Energy Policy Act of 2005,” 

August 8, 2005.


NAVFAC SW Comments
The Commander, NAVFAC, responding on behalf of the Commanding Officer,
NAVFAC SW, disagreed with the recommendation, stating that NAVFAC SW was not
responsible for submitting the implementation plan and did not issue the contract.
Therefore, it is outside of the NAVFAC SW Commanding Officer’s roles and
responsibilities to issue this guidance. The Commander also stated that the Office of the
Secretary of Defense and the Secretary of the Navy conveyed clear direction for energy-
related projects. The Commander explained the AMI projects, and all their
shortcomings, were discussed with the Principal Deputy Under Secretary of Defense
Comptroller and the Director of Facility Investment and Management, Office of the
Deputy Under the Secretary of Defense Installations and Environment during the vetting
process. However, the draft report downplays the short timeline that NAVFAC was
given to develop a priority list and get it through the approval process, which cleared all
the way through the OMB and the Office of the Vice President. A NAVFAC
Headquarter official also provided a comment within the Commanding Officer’s response
stating that he indicated before the DoD OIG audit that NAVFAC identified program and
project management shortfalls and had taken corrective actions. The NAVFAC
Headquarter official added that he requested the DoD OIG team to acknowledge this in
the report and the fact that NAVFAC already addressed this issue.

Our Response
Comments from the Commander, NAVFAC, were partially responsive. We agree that
NAVFAC SW was not responsible for submitting the implementation plan and did not
award the contract. We redirected Recommendation A to the Commander, NAVFAC.
Although, the Commanding Officer, NAVFAC SW, was not responsible for the
recommended action, he provided comments to this recommendation. Additionally, on
February 16, 2012, NAVFAC HQ officials stated that the program manager at NAVFAC
HQ should have requested clarification from the Department of the Navy and the Marine
Corps Headquarter on who was responsible for preparing the plan.

Although direction and shortcoming may have been discussed with officials in the Office
of the Deputy Under Secretary of Defense, NAVFAC officials could not provide
documentation to support this claim. The short timeline the Commander discussed does

                                            11 

not impact why the Department of the Navy did not adhere to the EPACT 05 requirement
for preparing and submitting an implementation plan. In this report, we did not discuss
the timeliness of NAVFAC’s submission of the plan to the Department of Energy. This
report discusses that NAVFAC officials did not submit an implementation plan, as
required by EPACT 05. As of the issuance of this report, NAVFAC officials have not
provided documentation to show that they submitted the plan. During a meeting on
February 16, 2012, a NAVFAC HQ official acknowledged that they identified program
and project management shortfalls and issued corrective actions. We requested
documentation to validate this assertion, but never received documentation to substantiate
that shortfalls were identified and corrective actions were taken. Therefore, we request
the Commander, NAVFAC, to provide comments by October 10, 2012.




                                           12 

Finding B. Oversight of the Contractor’s
Performance Was Not Adequate
NAVFAC officials did not properly oversee the installation of the advanced meters.
Specifically,

   	 NAVFAC SW officials did not develop quality assurance (QA) plans for the
      surveillance of the AMI project. For example, they did not develop design and
      construction QA plans for six of the nine task orders. NAVFAC SW officials
      stated that they did not complete QA plans because they were awaiting the
      contractor’s final design packages. As a result, NAVFAC SW officials did not
      have reasonable assurance that the meters installed for the AMI project will
      conform to contract requirements.

   	 NAVFAC SW officials did not ensure the contractor completed the nine task
      orders for the AMI project within agreed upon milestones. This occurred because
      NAVFAC SW did not have an effective project manager to oversee the
      contractor’s performance. As a result, the nine task orders missed the
      renegotiated completion date, and seven of the nine are at risk of missing the
      EPACT 2005 mandate requiring the installation of all meters by October 1, 2012.

   	 SCAN officials did not insert FAR clause 52.211-12, “Liquidated Damages,” in
      eight task orders. Naval Facilities Acquisition Supplement (NFAS), subpart 11.5,
      “Liquidated Damages,” March 2006, states that the appropriate liquidated
      damages rate shall be included in all firm fixed-price construction contracts
      exceeding the simplified acquisition threshold. The contracting officer, who has
      since left SCAN, decided that the clause should not be included in the task orders,
      for reasons that apparently were never documented in the contract file. As a
      result, the absence of the liquidated damages clause is a factor that may have
      contributed to the delays in the AMI project.

Oversight of Metering Infrastructure Needs Improvement
NAVFAC SW officials did not properly oversee the installation of advanced meters.
According to FAR subpart 46.4, “Government Contract Quality Assurance,” QA
surveillance plans should be prepared in conjunction with preparing the statement of
work to determine that the supplies or services conform to contract requirements. The
plans should specify all work requiring surveillance and the method of surveillance.
In addition, OMB Memorandum M-09-10, “Initial Implementing Guidance for the
American Recovery and Reinvestment Act of 2009,” February 18, 2009, require agencies
to actively monitor contracts to ensure performance, cost, and schedule goals are met,
including:

      implementing quality assurance procedures established for contracts; 

      documenting timely inspection and acceptance of deliverables; and



                                           13 

   	 using all available tools to identify and remedy deficiencies related to contractor
      performance, cost, and schedule.

NAVFAC SW officials did not meet the OMB memorandum requirements for preparing
design and construction QA plans. Those plans would have included QA procedures to
identify and correct deficiencies related to the contractor’s performance, cost, and
schedule, such as missed milestones. Additionally, not including the liquidated damages
clause limited the remedies available to address deficiencies related to the contractor’s
performance.

Quality Assurance Plans Not Prepared
NAVFAC SW officials did not develop QA plans for the surveillance of all task orders
issued under the AMI project. For example, they did not develop design and construction
QA plans for six of the nine task orders, valued at about $13.5 million. The NAVFAC
Business Management System states the design manager is responsible for preparing a
design QA plan and the construction manager is responsible for preparing a construction
QA plan. The purpose of a QA plan is to document the surveillance of the contractor’s
definable features of work and quality control program to ensure compliance with
contract specifications. A definable feature of work is part of the project, and if not
performed exactly as stated in the contract, will cause deficiencies that could prevent the
user from performing their assigned mission. For the six task orders (task orders 6, 10,
12, 14, 15, and 16), NAVFAC SW officials could not show how they would provide
design oversight. Specifically, they could not show how they would document site visits,
review submittals, and conduct pre-construction meetings. The purpose of the design
oversight is to provide reasonable assurance that the contractor’s work complies with
contract specifications. Also, NAVFAC SW officials did not identify definable features
of work for construction oversight, such as installing electric, water, and gas meters.
However, NAVFAC SW officials did develop QA plans for task orders 7, 8, and 11.
Those plans identified definable features of work and design oversight to the ensure
contractor meets contract specifications. Table 2 (page 15) identifies the value of each
task order and indicates whether NAVFAC SW prepared a QA plan.




                                            14 

          Table 2. FEAD Development of Design and Construction QA Plans
                Task Order          FEAD Site               Value        Plan Prepared
                                                                         for Design and
                                                                          Construction
                                                                           Oversight
               Task Order 6          Coronado             $6,597,901           No
               Task Order 7         San Diego              1,965,010          Yes
               Task Order 8         Point Loma             2,609,487          Yes
               Task Order 10        Seal Beach             1,321,110           No
               Task Order 11        China Lake             4,221,767          Yes
               Task Order 12         El Centro             1,217,843           No
               Task Order 14         Lemoore               2,246,322           No
               Task Order 15         Monterey               443,182            No
               Task Order 16          Fallon               1,673,047           No
                     Value of Task Orders              $22,295,669


Design Packages Were Unavailable for Preparing
QA Plans
NAVFAC SW officials did not complete the design and construction QA plans because
they were awaiting the contractor’s final design packages. The NAVFAC Business
Management System requires the design manager to obtain the contractor’s final designs
to allow design production to continue on schedule. However, NAVFAC SW officials
stated that they did not appoint a design manager for the SW AMI task orders to ensure
that the design process continued as planned. NAVFAC SW officials stated that they
might not have appointed a design manager because SCAN awarded the task orders when
normally NAVFAC Integrated Product Teams4 award contracts. Not appointing a design
manager contributed to the ineffective monitoring of the project milestones. On
February 22, 2012, NAVFAC officials provided the remaining six QA plans after our site
visit. However, the six FEADs did not follow the NAVFAC Business Management
System process for preparing design and construction QA plans. Instead, the six FEADs
received instruction from a NAVFAC SW official to review and change the names of an
existing QA plan to reflect their respective offices. The Commanding Officer, Naval
Facilities Engineering Command Southwest, should review these QA plans to ensure they
complied with the NAVFAC Business Management System for preparing design and
construction QA plans.

Monitoring of Project Milestones Was Ineffective
NAVFAC SW officials did not ensure the contractor completed the AMI project within
agreed upon milestones. Specifically, NAVFAC SW officials did not properly monitor
the contractor’s performance to ensure the AMI project was completed and the Contract



4
 Integrated Product Teams serve as the primary execution platforms within the Facilities Engineering
command and are accountable for product and service cost, quality, and schedule.

                                                   15 

Data Requirements List5 (CDRL) submittals were provided within the agreed upon
milestones. FAR subpart 11.5, “Liquidated Damages” states, “the time of delivery or
performance is such an important factor in the award of a contract that the Government
may reasonably expect to suffer damage if the delivery or performance is delinquent.”
NAVFAC SCAN officials prepared a single solicitation and awarded eight of the nine
task orders6 for the SW region, but the contractor executed the task order using a regional
approach.7 When NAVFAC SW officials noticed slippages in the AMI timeline for
completion, NAVFAC SW officials later renegotiated with the contractor to grant time
extensions, which also resulted in the contractor operating under a task order approach.8

Milestones Were Missed Under the Regional Approach
The regional approach affected the contractor’s ability to meet milestones at all FEAD
sites. For instance, Point Loma encountered problems (for example, meter selection, test
switch, and trenching interpretation) that affected the installation of advanced meters at
the remaining sites. Point Loma was the first FEAD to begin the survey and design
process for AMI. While Point Loma does not represent all of the FEAD sites, the
problems encountered there were common throughout the entire AMI Southwest region.
The Navy’s AMI goal was to have a standardized system at all sites, and as such, SCAN
officials prepared the AMI contract as a single solicitation and awarded eight task orders.
Further, SCAN officials made incorrect assumptions regarding site conditions. For
example, SCAN officials assumed all sites had complete virgin soil;9 but some sites had
50 percent asphalt and 50 percent soil, requiring more trenching than the contract
required. NAVFAC SW officials were to ensure the contractor installed 2,334 advanced
meters for eight FEAD sites by August 20, 2011, and 173 advanced meters for one FEAD
site by March 23, 2012. Because NAVFAC SW officials did not properly exercise due
diligence, the contractor missed milestones and did not deliver required CDRL submittals
on time; therefore, the period of performance date became unattainable.

The project delivery schedule required the contractor to submit CDRLs to NAVFAC SW
officials by the agreed upon estimated completion date. As described in Table 3, all
FEAD sites did not complete two required CDRL submittals and did not submit five
CDRLs on time. Specifically, the contractor delivered a Program Management Plan,
Quality Control Plan, Maintenance Plan, Preliminary Design Package, and conducted
Site Surveys 1 to 2 years after the required completion date. However, the contractor did



5
  An authorized list that includes essential data and deliverable data requirements from a contract or
  solicitation that can also be found in the contract’s statement of work.
6
  NAVFAC SW awarded task order 16, Fallon, approximately 1 year after task orders 6 through 8,
  10 through 12, 14, and 15.
7
  Under the regional approach, the contractor was responsible for executing 2,507 advanced meters at all
  FEAD sites, based on a standardized architecture, and leveraging the best approach to address unforeseen
  site conditions and possible delays that may occur.
8
  The task order approach is an approach NAVFAC officials used to execute at all FEAD sites based on a
  standardized architecture. Under this approach, site-specific conditions or delays at one site will not
  impede or hinder the progress at remaining sites.
9
  Virgin soil is either clay, loam, gravel, marshy ground, or sand, in its natural condition.

                                                    16 

not deliver a Cost Budget Plan for all FEAD sites. Table 3 describes the missed
milestones that occurred at all FEAD sites.

              Table 3. Milestones Missed Under the Regional Approach
   Features of Work/Work          Original           Original        Date Action Item
    Breakdown Schedule           Estimated          Estimated        Completed or Not
                                 Start Date       Completion Date      Completed
 Develop Program Management
             Plan               Aug 24, 2009          Sep 18, 2009      Nov 8, 2010
     Develop Cost Budget        Aug 24, 2009          Aug 28, 2009    Not Completed
  Develop Program Schedule      Aug 24, 2009          Jul 21, 2011    Not Completed
      Develop QC Plan           Aug 24, 2009          Sep 18, 2009     Feb 21, 2011
  Develop Maintenance Plan      Feb 1, 2010           Mar 8, 2010      Aug 17, 2011
  Prepare Preliminary Design
           Package              Sep 28, 2009          Dec 4, 2009      Apr 27, 2010
 Conduct Detailed Site Survey   Sep 7, 2009           Feb 1, 2010      Apr 27, 2010


Since the contractor used a regional approach to install the meters for the nine task
orders, NAVFAC SW officials and the contractor adjusted the milestones on a monthly
basis to compensate for the site delays and for submitting required CDRLs that they
missed. Although NAVFAC officials and the contractor agreed to adjust the project
delivery schedules to compensate for the delays missed under the regional approach, they
still missed milestones at all FEAD sites while operating under the task order approach.

Missed Milestones Continued Under the Task Order Approach
NAVFAC SW officials renegotiated an agreement with the contractor to operate under a
task order approach for each site because the contractor continued to miss milestones
under the regional approach. Accordingly, NAVFAC SW officials updated the delivery
schedule to reflect the new milestones. In February 2011, NAVFAC SW officials
provided an adjusted delivery schedule (renegotiated schedule) outlining new start and
completion dates for each FEAD. The renegotiated schedule was a document
NAVFAC SW and the contractor used to show the results of their renegotiation of
milestones. Based on our review, the nine FEADs did not meet the renegotiated
scheduled milestones. However, NAVFAC officials did a contract modification for four
FEADs (task order 8, 10, 14, and 15); in which, the renegotiated dates did not reflect the
modification dates. According to a NAVFAC official, as of February 2012, the nine
FEADs did not complete their AMI projects. Two FEADs (Point Loma and San Diego)
completed the installation phase; however, the installation for these two sites was about
2.5 and 3.5 months late, respectively. China Lake advanced meters installation was
scheduled for completion on March 31, 2012, but audit documentation provided as of
January 31, 2012, showed 0 percent completion. Because the ability to meet the
renegotiated milestones was dependent on whatever conditions the contractor
encountered at the site, it was improbable that China Lake would meet its renegotiated
milestone date. Table 4 (page 18) identifies the nine FEAD sites and identifies whether
each site met its milestones.

                                               17 

                     Table 4. Milestones for the Task Order Approach
       FEAD Site             Initial Estimated            Renegotiated            Were Renegotiated
                                 Start Date                Estimated               Milestones Met
                                                         Completion Date
        Coronado               Aug 24, 2009                Dec 31, 2011                   No
       San Diego1              Aug 24, 2009                Aug 15, 2011                   No
       Point Loma2             Aug 24, 2009                Jun 15, 2011                   No
       Seal Beach              Aug 24, 2009                Dec 15, 2011                   No
       China Lake              Aug 24, 2009                Mar 31, 2012                   No3
        El Centro              Aug 24, 2009                Sep 30, 2011                   No
          Lemoore                  Aug 24, 2009               Nov 15, 2011                     No
          Monterey                 Aug 24, 2009               Dec 15, 2011                     No
                  4
           Fallon                  Sep 30, 2010                    N/A                         No
  1
    As of January 31, 2012, San Diego’s AMI project installation phase is 100 percent completed.
  2
    As of January 31, 2012, Point Loma’s AMI project installation phase is 100 percent completed.
  3
    As of January 31, 2012, China Lake did not install meters, but the installation was estimated for
    completion by March 31, 2012.
  4
    NAVFAC SW awarded Task Order 16, Fallon, approximately 1 year after task orders
    6 through 8, 10 through 12, 14, and 15. However, a NAVFAC SW official provided documentation
    stating that Fallon is potentially in trouble.

Oversight Over Managing Milestones Was Ineffective
NAVFAC SW officials did not have an effective project manager to oversee the
contractor’s performance. The project manager at NAVFAC ESC oversees all AMI
projects for the Navy. The ESC project manager stated that his roles and responsibilities
for overseeing the project execution were limited and extended only to making
recommendations regarding AMI issues to each FEAD. The ESC project manager also
stated that the administrative contracting officer is ultimately responsible for handling
contractor issues and disputes. Further, NAVFAC Headquarters officials stated that the
administrative contracting officer is responsible for appointing a project manager at each
FEAD to manage the daily execution of its own project. NAVFAC SW officials
disagreed, stating that NAVFAC ESC have an appointed project manager who should be
managing the AMI SW project from “cradle to grave.” The ESC project manager is also
the appointed contracting officer representative. According to the contracting officer
representative appointment letter, he is responsible for notifying the contracting officer of
potential performance problems. The letter also states that in the event of contractor
delay or failure to perform, he needs to notify the contracting officer, so he or she can
determine the cause and recommend the appropriate corrective or preventive measures.
The NAVFAC Commanding Officer should have clearly articulated the roles and
responsibilities to the project manager, so the project manager could have ensured the
contractor was executing the project according to the agreed upon project milestones.




                                                  18 

AMI Base Contract Made Liquidated Damages
Clause Optional
SCAN officials did not insert FAR clause 52.211-12, “Liquidated Damages,” in eight of
the nine task orders. The AMI base contract stated that liquidated damages will be
evaluated and included at the task order level as needed. Although the AMI contract
provided NAVFAC with the discretion to include the liquidated damages clause, DFARS
subpart 211.5, generally requires construction contracts exceeding $650,000 to include
the liquidated damages clause. In addition, Naval Facilities Acquisition Supplement
(NFAS), subpart 11.5, “Liquidated Damages,” March 2006, states that the appropriate
liquidated damages rate shall be included in all firm fixed-price construction contracts
exceeding the simplified acquisition threshold.

The task orders did not include the liquidated damages clause identifying the amount the
contractor would pay for each calendar day they missed milestones. However, the task
order 16 included the amount of liquidated damages that NAVFAC could have collected
if the contractor missed milestones. The amount was consistent with the instructions in
NFAS subpart 11.5 on how to calculate liquidated damages. Although the liquidated
damages amount in task order 16 was consistent with the Navy’s guidance, SCAN
officials modified the amount from $787 to $250. SCAN officials modified the
liquidated damages amount because the contracting officer did not amend the liquidated
damages amount that was included in the original request for proposal to reflect the
increase in the contract’s award price. For the eight task orders, we compared the period
of performance for the contract’s completion date to the date we received the completion
status, which was February 17, 2012, and found approximately 724 missed milestones
days. We also compared the date of the modification for time extension (only for those
task orders that prepared a modification for time extension) to the date we received the
completion status and found 343 missed milestones days. FAR clause 52.211-12(a)
states, “if the contractor fails to complete the work within the time specified in the
contract, the contractor shall pay liquidated damages to the Government in the agreed
amount for each calendar day of delays until the work is completed or accepted.

Liquidated Damages Language Not in Task Orders
SCAN officials did not ensure the contracting officer included the liquidated damages
clause in eight task orders, as required by NFAS subpart 11.5 and as generally required
by DFARS subpart 211.5. The contracting officer, who is no longer with SCAN, decided
that the clause should not be included in the task orders, but appears not to have
documented the reason for this decision. SCAN officials stated that they did not know
why the contracting officer made the decision not to include the clause. However, FAR
subpart 11.5(1) states,

         [t]he contracting officer must use liquidated damages clauses only when [t]he
         time of delivery or timely performance is so important that the Government
         may reasonably expect to suffer damage if the delivery or performance is
         delinquent; and [t]he extent or amount of such damage would be difficult or
         impossible to estimate accurately or prove.



                                                  19 

Timely performance by the contractor is important because the primary goal of the
Recovery Act was to execute projects quickly that will create and retain jobs. More
importantly, EPACT 2005 requires meters in all Federal buildings by October 1, 2012.
In addition, the extent of damage was difficult to estimate accurately because, according
to a NAVFAC official, the contracting officer was unable to forecast harm associated
with late delivery and too many unknowns existed at time of award to estimate potential
damages. NAVFAC SW should have included the clause in the eight task orders to
ensure the contractor met AMI milestones.

Conclusion
NAVFAC SW officials’ lack of surveillance over the contractor resulted in the improper
execution of the AMI project. Without a QA plan and an effective project manager to
oversee the contractor’s performance, NAVFAC SW cannot ensure that the design and
construction for six of the nine task orders, valued at $13.5 million, complied with
contract requirements and that the nine task orders would be completed according to
agreed upon milestones. Also, the absence of the liquidated damages clause is a factor
that may have contributed to the delays in the AMI project.

Recommendations, Management Comments, and
Our Response

Redirected and Renumbered Recommendations
As a result of management comments, we redirected draft Recommendation B.4 to the
Commander, NAVFAC and renumbered the recommendations. Draft Recommendation
B.4 has been renumbered as Recommendation B.1 and draft Recommendations B.1, B.2,
and B.3 have been renumbered to B.2.a, B.2.b, and B.2.c, respectively.

B.1. We recommend that the Commander, Naval Facilities Engineering Command
review the performance of the official responsible for not including the liquidated
damages clause. Based on the results, consider any corrective actions, as
appropriate.

NAVFAC SW Comments
The Commander, NAVFAC, responding on behalf of the Commanding Officer,
NAVFAC SW, stated that NAVFAC SW did not award the original task orders for the
AMI contract. The Commander also disagreed with the report conclusion, that the
Government forego over $200,000 in potential collection of damages, which he stated is
factually incorrect, and the estimates of liquidated damages in the report are inaccurate
and unsupportable based on the facts in this report. The Commander stated that
liquidated damages are not punitive, but compensate the Government for probable
damages. The liquidated damages rate must be a reasonable forecast of just
compensation for the harm caused by late delivery or untimely performance of the
particular contract action. He further stated that even if the clause was in the task orders,
to collect potential damages, the contractor had to be 100 percent at fault; however, the

                                             20 

fault was both the Government’s and the contractor’s. Furthermore, the Commander
stated that the mere exclusion of the liquidated damages clause does not negate the
Government’s ability to collect damages; if the Government suffers actual damages due
to the contractor’s late completion, the Government can seek damages from the
contractor through an affirmative claim.

Our Response
Comments from the Commander, NAVFAC, were partially responsive. We agree with
the Commander that NAVFAC SW did not award the original task orders for the AMI
contract. NAVFAC SCAN awarded all task orders except task order 16, Fallon. Since
NAVFAC SCAN is operationally aligned under NAVFAC, we redirected draft report
Recommendation B.4 to the Commander, NAVFAC. Although, the Commanding
Officer, NAVFAC SW, was not responsible for the recommended action, he provided
comments and we agree with his statement that the mere exclusion of the clause does not
negate the Government’s ability to collect damages. Therefore, we revised the finding
and conclusion to show that the absence of the liquidated damages clause is a factor that
may have contributed to the delays in the AMI project.

We also agree with the criteria the Commander used from the FAR. However,
NAVFAC SW officials stated that the contracting officer was unable to forecast harm
associated with late delivery. Although the contracting officer was unable to forecast
harm, as cited on page 20 of this report, DFARS subpart 211.5 generally requires
construction contracts exceeding $650,000 to include the liquidated damages clause.
NFAS subpart 11.5 also states that the appropriate liquidated damages rate shall be
included in all firm fixed-price construction contracts exceeding the simplified
acquisition threshold. Based on these criteria, the AMI contract was required to include
the liquidated damages clause, which the contracting officer did include in task order 16.
Additionally, the contracting officer should have included the clause because
FAR subpart 11.5(1) explicitly states that the contracting officer must use liquidated
damages clauses when timely performance is so important that the Government may
expect to suffer damages and the extent or amount of such damage would be difficult or
impossible to estimate accurately or prove.

On April 28, 2011, a NAVFAC SW official stated that when the contractor began
missing milestones, the contractor requested additional funding and time. Also, the
NAVFAC SW official stated that they attempted to reach a bilateral liquidated damages
agreement with the contractor; however, it was unsuccessful. Therefore, we request the
Commander, NAVFAC, provide comments to this recommendation in the final report by
October 10, 2012.




                                            21 

B.2. We recommend the Commanding Officer, Naval Facilities Engineering
Command Southwest:

   a. Require the six Facilities Engineering Acquisition Divisions to review their
Quality Assurance plans to ensure they were prepared in accordance with the Naval
Facilities Engineering Command Business Management System.

NAVFAC SW Comments
The Commander, NAVFAC, responding on behalf of the Commanding Officer,
NAVFAC SW, disagreed with the recommendation, stating that QA plans were
completed for all sites since the DoD IG site visit in April 2011 and May 2011. In
addition, he believes NAVFAC SW has checks and balances in place to demonstrate an
adequate and sufficient QA plan. He explained that NAVFAC SW officials
recommended that all locations use the current NAVFAC Business Management System
template. The Commander agreed that one NAVFAC SW official shared a QA plan,
which he stated is consistent with using lessons learned across the area of operations.
The Commander added that NAVFAC SW holds each location accountable for the
execution, oversight, and implementation of the work and all locations have personnel
that are knowledgeable and competent of implementing the QA plan. He explained that
NAVFAC SW officials will use QA plans until the contract is complete and that lessons
learned from each location allow the Government to fine-tune the QA plans. The
Commander also explained NAVFAC SW officials have shared these adjustments with
all locations that are still installing meters.

Our Response
Comments from the Commander, NAVFAC, were nonresponsive. We agree that
NAVFAC SW officials provided QA plans since our April 2011 and May 2011 site visits
as noted in our report on page 15. However, six FEADs did not provide a QA plan prior
to our site visits in April 2011 and May 2011. According to FAR Part 46.401, an agency
should develop a QA plan in conjunction with the preparation of the contract statement of
work. The QA plan for task order 11 explains that a QA plan is to be prepared as early
possible after contract award to ensure the contractor’s work complies with contract
requirements. The documentation a NAVFAC SW official provided showed that FEADs
were not recommended to use the most current template from the NAVFAC SW
Business Management System. Instead, a Point Loma official instructed the FEADs to
review a provided QA plan and change the names accordingly to their respective FEAD
office. In addition, the FEADs were instructed to provide a response before the meeting
with the audit team so that a NAVFAC SW official could state in the meeting that all QA
plans are completed. After we received the six remaining QA plans, three of the FEAD
QA plans provided by NAVFAC SW officials still showed incorrect task order numbers.
We request that the Commanding Officer, NAVFAC SW, reconsider the
recommendation, and provide additional comments by October 10, 2012.




                                           22 

    b. Appoint a project and design manager at each Facilities Engineering
Acquisition Division site to provide effective oversight over the design and
installation of advanced meters.

NAVFAC SW Comments
The Commander, NAVFAC, disagreed with the recommendation. He stated that a
project manager, who is referred to as the construction manager, was appointed to each
contract task order to provide oversight for the design and installation of the meters from
the start of the project. He also stated that the NAVFAC Southwest team (including a
construction manager, administrative contract specialist and a technical subject matter
expert) executed each task order project at the associated NAVFAC Southwest Public
Works Department and executed the projects consistent with NAVFAC processes. In
addition, the Commander stated that NAVFAC Southwest established an operation
oversight team to ensure project execution was consistent across NAVFAC Southwest
area of responsibility and they coordinated key AMI issues and problems with NAVFAC
Headquarters, Naval Facilities Engineering Service Center, and the Specialty Center
Acquisition NAVFAC. The Commander further stated that the AMI program and
execution team worked together throughout the AMI process to meet the aggressive
execution goals of the Office of the Secretary of Defense and the Assistant Secretary of
the Navy.

Our Response
Comments from the Commander, NAVFAC, were partially responsive. We agree that
NAVFAC SW has a Public Works Department team. However, we disagree that
NAVFAC SW appointed a project manager for each task order to provide oversight for
the design and installation of meters, and the construction manager at each FEAD is the
project manager. According to the Business Management System B-1.4.6.3, “Design-
Build Quality Management,” January 25, 2011, at the time of design build contract
award, the leadership and accountability of the project shift to the construction manager.
Nevertheless, the shift did not absolve the project manger and design manager from their
roles and responsibilities to oversee the contractor performance.

A NAVFAC SW construction manager informed us that NAVFAC SCAN awarded the
contract and did not designate a project manager nor design manager for each FEAD;
both are appointed when the NAVFAC SW Integrated Product Team awards contracts.
In addition, the construction manager stated that the project manager and design manager
are responsible for ensuring the project is complete and assuring the design process is
appropriate, respectively. As stated in the report, NAVFAC Headquarters officials
informed us that the administrative contracting officer is responsible for appointing a
project manager at each FEAD to manage the daily execution of their project. On
April 28, 2011, a NAVFAC SW official stated that the appointed project manager should
manage the project from “cradle to grave.” He also added that NAVFAC SW had to
intervene to handle issues regarding contractor delays and performed other project
manager functions. He further stated that NAVFAC SW established a team in direct
response to the lack of effective management of the AMI project and because


                                            23 

NAVFAC SW had no routine dialogue with the NAVFAC ESC project manager.
Therefore, we request the Commanding Officer, NAVFAC SW, reconsider the
recommendation, and provide additional comments by October 10, 2012.

    c. Review the performance of the project manager responsible for overseeing
the contractor performance and the missed milestones. Based on the results,
consider any corrective actions, as appropriate.

NAVFAC SW Comments
The Commander, NAVFAC, responding on behalf of the Commanding Officer,
NAVFAC SW, disagreed with the discussion on missed milestones, which he stated
resulted in incorrect conclusions. The Commander specifically stated that the discussion
on missed milestones was based on an incorrect statement that the AMI project was a
regional contract. He further stated that the original award consisted of nine standalone
contracts and no such NAVFAC SW “renegotiated agreement” took place with the
contractor.

In addition, the Commander stated that the missed milestones have been concurrent
delays and documented as such by the contracting officials, which NAVFAC SW
provided to the DoD OIG through e-mail and discussed in a telephone conversation with
the OIG team on February 16, 2012. He stated that the conclusions regarding the missed
milestones discussed on page 13 were based solely on our review of the original contract
completion dates and not based on any interaction with the field personnel mentioned in
the report.

Our Response
Comments from the Commander, NAVFAC, were partially responsive. On pages 15 and
16 of this report, we stated that NAVFAC SCAN officials prepared the AMI contract as a
single solicitation and awarded eight stand-alone task orders, and NAVFAC SW awarded
one task order. We did not discuss the type of contract awarded, but rather the basis used
to execute the contract. This report highlights that the contractor executed the task orders
using a regional approach before using a task order approach. Documentation obtained
from NAVFAC SW dated February 17, 2010, states that the contractor bid and won the
task orders on a regional basis, and the contractor executed its work as such. Additional
documentation showed that NAVFAC SW officials informed the contractor on several
occasions that they were to operate from a task order approach. However, the contractor
continued to operate from a regional approach. NAVFAC SW officials allowed the
contractor to conduct its work and operate from a regional approach to their detriment
and delay. During our site visit on April 29, 2011, NAVFAC SW officials provided the
audit team with a copy of what they considered a renegotiated delivery schedule with
new milestone dates that they renegotiated with the contractor, listing the new milestone
dates for each site. We used the new milestones, or renegotiated schedule (agreement),
as a basis to determine milestone days missed.




                                            24 

We also agree with the Commander’s comments that the missed milestones have been
concurrent delays that NAVFAC SW officials properly documented with the contracting
officials. However, we disagree that interaction with personnel in the field did not take
place. We conducted site visits and meetings from March 28 to May 4, 2011, with
NAVFAC ESC and SCAN officials at Port Hueneme, California, and officials at three
FEADs in the San Diego area—Point Loma, San Diego, and Coronado. During the
months of June, July, and October 2011 and January 2012, we communicated with a
NAVFAC SW official regarding the period of performance at each site and during each
conversation, the contractors were always behind schedule, with the exception of two
FEADs.

Regardless of the approach used to execute the AMI project, the contractor missed
milestones. In January 2012, we requested a final status update of each site and a
NAVFAC SW official provided a Data Call Worksheet dated November 2011. The Data
Call Worksheet identified two FEADs that were 100 percent completed, four that were
zero percent completed, three that were less than 70 percent completed, and one that was
less than 94 percent completed. Using that information, we concluded that there is a risk
that seven of the nine task orders will miss the EPACT 2005 mandate requiring the
installation of advanced meters by October 1, 2012. Therefore, we are requesting the
Commanding Officer, NAVFAC SW, to reconsider the recommendation, and provide
additional comments by October 10, 2012.




                                           25 

Finding C. Quality Reviews of Reported Data
Were Not Adequate
NAVFAC SW officials did not adequately verify data reported for the AMI Project.
Specifically, NAVFAC SW officials:

     	 accepted information that the contractor submitted to www.FederalReporting.gov
        without adequate review. This occurred because NAVFAC SW did not have
        adequate procedures to detect and correct reporting errors during data quality
        reviews and verify the reasonableness of the estimated number of jobs reported
        by the contractor.

     	 did not enter Contract Action Reports (CARs) for five of the nine task orders in
        the Federal Procurement Data System (FPDS). This occurred because
        NAVFAC SW officials did not have procedures in place to verify that contract
        actions they entered into the Standard Procurement System properly transferred
        to FPDS.

As a result, NAVFAC SW officials did not ensure the contractor adequately informed the
public of Recovery Act funds spent, services performed, and the employment impact of
the AMI project.

Recovery Act Reporting Requirements
Section 1512 of the Recovery Act requires recipients10 (contractors) to report on the use
of Recovery Act funds. Recipients of awards under section 1512 of the Act must report
on a quarterly basis on the first day following the end of the quarter. Federal agencies are
required to review the quality of data submitted by the contractor in response to the
reporting requirements. See Appendix D for a detailed discussion of the Recovery Act
reporting guidance.

Reviews of the Contractor’s Reports Need Improvement
NAVFAC SW officials did not adequately verify the data reported by the contractor on
www.FederalReporting.gov. Table 5 (page 27) lists the seven reporting periods in which
the contractor submitted reports.




10
  Prime recipients are non-federal entities that receive Recovery Act funding through Federal awards. The
 terms “prime recipient” and “recipient” are interchangeable. For Federal contracts subject to reporting
 under FAR clause 52.204-11, these terms translate to “federal contractor” (for example, prime contractor).

                                                    26 

               Table 5. Recovery Act Contractor Reporting Calendar Timeline
               Quarter (Q),             Time Period Covered (Reporting                 Start of
            Calendar Year (CY)                  Quarters/Periods)                  Reporting Cycle
               Q-3, CY 2009           February 17, 2009 – September 30, 2009       October 1, 2009
               Q-4, CY 2009            October 1, 2009 – December 31, 2009         January 1, 2010
               Q-1, CY 2010              January 1, 2010 – March 31, 2010           April 1, 2010
               Q-2, CY 2010                April 1, 2010 – June 30, 2010             July 1, 2010
               Q-3, CY 2010             July 1, 2010 – September 30, 2010          October 1, 2010
               Q-4, CY 2010            October 1, 2010 – December 31, 2010         January 1, 2011
               Q-1, CY 2011              January 1, 2011 – March 31, 2011           April 1, 2011


For the reporting period September 30, 2009, to March 31, 2011, the contractor submitted
approximately 59 reports11 (available at www.Recovery.gov) containing data reported on
www.FederalReporting.gov in accordance with section 1512 of the Recovery Act. The
contractor reported $5.2 million of Recovery Act funds in the wrong quarter, and
NAVFAC SW officials did not validate the cumulative total of 6.3 jobs reported for
seven quarters.

Amount Invoiced Was Reported in the Incorrect Quarter
NAVFAC SW officials did not adequately review data the contractor submitted to
www.FederalReporting.gov. Specifically, NAVFAC SW officials did not ensure the
contractor reported $5.2 million of Recovery Act funds in the appropriate reporting
quarter. The contractor submitted invoices for eight task orders. Of those eight task
orders, NAVFAC SW officials received invoices for six task orders (task orders 6, 7, 8,
11, 14, and 15), valued at $4,862,744, in the third quarter of calendar year (CY) 2010;
however, the contractor incorrectly reported these in the second quarter. Also, the
contractor submitted, and NAVFAC SW officials received, the invoice for task order 10,
valued at $356,837, in the fourth quarter of CY 2010, but the contractor incorrectly
reported the invoice amount in the second quarter of CY 2010. The contractor correctly
submitted and reported task order 12, valued at $332,500. Table 6 (page 28) shows
invoices the contractor submitted, which NAVFAC SW officials received and processed.




11
     The prime recipient for the AMI Recovery Act project submitted quarterly reports for nine task orders
     awarded under this project.


                                                       27 

          Table 6. Amount Invoiced by the Contractor Not Correctly Reported
   Task         Invoiced      Contractor           Invoice       Payment        Quarter      Correct
   Order        Amount          Invoice           Received      Processing     Contractor   Reporting
                              Submission            Date           Date         Reported     Quarter
                                  Date                                           Invoice
                                Aug 19,
      6        $1,787,950         2010           Aug 19, 2010   Aug 23, 2010   Q2, CY2010   Q3, CY2010
                                Sep 23,
      7         518,521           2010           Sep 23, 2010   Sep 23, 2010   Q2, CY2010   Q3, CY2010
                                Aug 20,
      8         703,071           2010           Aug 8, 2010    Sep 14, 2010   Q2, CY2010   Q3, CY2010
                                 Nov 1,
     10         356,837           2010           Nov 1, 2010    Nov 4, 2010    Q2, CY2010   Q4, CY2010
     11        1,148,156      Sep 8, 2010        Sep 8, 2010    Sep 21, 2010   Q2, CY2010   Q3, CY2010
     12         332,500       Jun 3, 2010        Jun 3, 2010     Jun 3, 2010   Q2, CY2010   Q2, CY2010
     14         591,430       Jul 16, 2010       Jul 16, 2010   Jul 20, 2010   Q2, CY2010   Q3, CY2010
     15         113,616       Jul 16, 2010       Jul 16, 2010      No date     Q2, CY2010   Q3, CY2010
    *16            0
    Total
  Invoiced     $5,552,081
*Task order 16 indicates no invoice submitted.

Data Quality Reviews Did Not Identify Reporting Errors
NAVFAC SW officials did not include procedures in their data quality review process for
validating contractor reported data. Specifically, NAVFAC SW officials did not have
adequate procedures to detect and correct reporting errors during their data quality review
for the amount invoiced by the contractor. According to NAVFAC SW internal
guidance, the review process consisted of verifying whether the contractor submitted
their quarterly reports on time, validating reported data for accuracy and errors, and
certifying the report in www.FederalReporting.gov.

The review process requires NAVFAC SW to validate the invoiced amount reported in
contractor reports by comparing it to the invoiced data available in the Federal
Government invoicing system (Wide Area Work Flow). A NAVFAC SW official stated,
however, that the review only focused on the dollar amount reported. Also, he did not
validate whether the contractor reported the invoices in the correct quarter. Further, he
acknowledged this was the first time they identified this reporting error. Based on our
discussions, the NAVFAC SW official agreed to update the data quality review process
to ensure the contractor reports the invoiced amounts in the correct quarter. NAVFAC
SW officials should also notify the contractor to correct the $5.2 million of invoices
incorrectly reported.




                                                     28 

Reasonableness of Reported Jobs Was Not Validated
NAVFAC SW officials did not validate the accuracy of key data elements, such as the
reasonableness of jobs reported by the contractor. The Director, Defense Procurement
                                      and Acquisition Policy, issued a memorandum
   NAVFAC SW officials did not        “Guidance on Reviewing Contractor Reports
    validate the accuracy of key      Required by the American Recovery and
     data elements, such as the       Reinvestment Act of 2009,” on December 16, 2009,
       reasonableness of jobs         requiring DoD contracting officers to verify the
    reported by the contractor.       accuracy of key data elements, such as the
                                      reasonableness of the total number of jobs reported.
At the end of the March 31, 2011, reporting period, the contractor reported a cumulative
total of about 6.3 full-time equivalents (FTE)12 jobs funded during the project design
phase. We determined that all nine task orders reported FTE jobs during the design
phase. However, NAVFAC SW personnel did not validate the FTE jobs reported in
contractor quarterly reporting. NAVFAC SW officials also did not perform any
additional steps to obtain the contractor’s justification for job estimates reported during
the project design phase or request for existing evidence that can validate their estimates.
See Table 7 for the number of FTEs reported for each task order.

                                         Table 7. Cumulative

                                      Number of FTE Jobs Reported

                                    Task                          Average FTE Jobs
                                    Order                          Reported during
                                                                    Design Phase*
                                      6                                  1.57
                                      7                                  0.65
                                      8                                  0.92
                                      10                                 0.29
                                      11                                 1.38
                                      12                                 0.40
                                      14                                 0.45
                                      15                                 0.30
                                      16                                 0.30
                             Cumulative Total of
                               Jobs Reported                             6.26
                  *
                      The number of FTE jobs reported during the design phase is based on
                      an average number of FTEs for seven reporting periods. Only task order 8
                      represents the average number of FTEs reported by the contractor for
                      quarters ending September 30, 2009, to December 31, 2010.




12
     The estimated numbers of jobs funded by the Recovery Act is expressed as “full-time equivalents” (FTE).
     The FTE formula for calculating the estimated “number of jobs” consists of dividing the total number of
     hours worked in the reported quarter by the number of hours in a full-time schedule for the quarter.

                                                        29 

Procedures for Verifying Jobs Reported Were Ineffective
NAVFAC SW officials did not include effective procedures for verifying the
reasonableness of the estimated number of jobs reported by the contractor although a data
quality review process was established. According to a NAVFAC official, he took the
number of jobs reported by the contractor on the “honor system” because the project was
in the design phase.

A NAVFAC SW official provided a “Jobs Calculation” worksheet to all Recovery Act
contractors to calculate the number of FTE jobs funded on a quarterly basis. As part of
the data quality review process, if the contractor reports an unusual number of jobs,
NAVFAC SW officials verify that number by requesting the field office to provide the
labor hours reported in the Daily Production Report. The daily reports contain the total
number of labor hours worked by employees each day at the project worksite. Once
NAVFAC SW officials receive the total number of labor hours worked for the most
recent quarter (the quarter being reported), they use the formula13 for calculating a FTE to
verify the contractor quarterly reporting of jobs.

NAVFAC SW officials requested the labor hours reported in the daily reports only when
the contractor performed work at the project worksite. The labor hours worked each day
at the home office, such as performing design work, were not reported by the contractor
or monitored by Government officials like the hours worked at a project work site.
Accordingly, NAVFAC SW officials trusted the number of jobs reported by the
contractor unless the contractor reports 0 FTEs during the course of the project. When
that occurs, NAVFAC SW officials request additional justification. NAVFAC SW
officials should implement procedures to validate the number of jobs reported during the
design phase and obtain evidence for the contractor estimates.

Recovery Act Contract Actions Not Reported in FPDS
NAVFAC SW officials did not enter CARs for five of the nine task orders in FPDS. A
March 19, 2010, Director, Defense Procurement and Acquisition Policy memorandum,
“Revised Posting and Reporting Requirements for the American Recovery and
Reinvestment Act of 2009 (Recovery Act)” states, “agencies shall follow existing FAR
part 4 requirements for reporting contract actions to FPDS.” Accordingly, each DoD
contract action using Recovery Act funds is reported individually to FPDS upon award.
This includes any contract modification or order under a task or delivery order contract
funded using Recovery Act funds. Table 8 (page 31) shows 32 modifications issued for
the AMI task orders. Nine of the 32 modifications increased the cost of AMI contract by
$4.3 million as shown in Table 8 on page 31.




13
     NAVFAC SW officials stated that a standard full-time schedule of a 40-hour work week
     (2,080 hours/4 hours=520 hours for each quarter) is use to perform the FTE calculation.

                                                      30 

                                 Table 8. Contract Modifications
   Task          Total           Total Number       Contract       Total          Total
   Order       Number of               of            Award       Modification    Contract
               Modification      Modifications      Amount        Amount         Amount
                    s              Increase
                                   Contract
    6                5                  1          $6,597,901     $1,173,876    $7,771,777
    7                2                  1           1,965,010      398,569       2,363,579
    8                3                  1           2,609,487      585,054       3,194,541
    10               4                  1           1,321,110      308,198       1,629,308
    11               4                  1           4,221,767      959,845       5,181,612
    12               5                  1           1,217,843      249,854       1,467,697
    14               4                  1           2,246,322      402,087       2,648,409
    15               3                  2            443,182       229,241       672,423
    16*              2                  0           1,673,047         0          1,673,047
   Totals           32                   9         $22,295,669    $4,306,724    $26,602,393
* Modification did not increase contract value.

The contracting officer issued nine contract modifications, increasing the cost of the AMI
contract in December 2009. According to www.FPDS.gov and available documentation
of the contract modifications, NAVFAC SW officials did not develop CARs for five of
the nine modifications, representing five of nine task orders (task order 6, 7, 8, 10,
and 15), totaling $2.7 million. Therefore, NAVFAC SW officials did not comply with
DoD policy for reporting contract actions to FPDS. As a result, FPDS users will not have
accurate and timely federal procurement data available for planning and awarding
contracts.

NAVFAC SW Unaware Contract Actions Not Listed
in FPDS
NAVFAC SW officials did not have procedures in place to verify that contract actions
entered into the Standard Procurement System were transferred to FPDS. According to
NAVFAC SW officials, they developed CARs to report the contract modifications, but
did not notice the CARs were not available in FPDS. NAVFAC SW officials stated that
contracting personnel used an external system to enter DoD contract actions. The
external system, which feeds into www.FPDS.gov contained a system “glitch” in
December 2009. As a result, NAVFAC SW officials did not process the CARs in the
external system, which resulted in the contract actions not reported in www.FPDS.gov.
NAVFAC SW officials should have ensured that the contract actions were updated into
the Standard Procurement System and transferred to FPDS upon award. To prevent this
from reoccurring, NAVFAC SW officials should establish procedures to monitor and
ensure all contract actions are reported. However, after informing NAVFAC SW
officials of the contract actions, personnel at Naval Base Coronado took action to update
the FPDS system for task order 6.



                                                  31 

Conclusion
NAVFAC SW data quality reviews did not identify reporting errors and did not notify the
contractor that $5.2 million of Recovery Act funds spent on the AMI project were
reported in the incorrect quarter. Also, NAVFAC SW officials did not have procedures
in their data quality review process for validating the reported number of jobs funded
during the design phase for the AMI project.

Recommendations, Management Comments, and
Our Response
C. We recommend the Commanding Officer, Naval Facilities Engineering
Command Southwest to:

   1. Require the Advanced Metering Infrastructure contractor to correct the
$5.2 million of invoices reported incorrectly in the second quarter of calendar year
2010.

NAVFAC SW Comments
The Commander, NAVFAC, responding on behalf of the Commanding Officer,
NAVFAC SW, agreed with the recommendation, stating there were reporting errors prior
to implementing a centralized review process. Since the IG’s visit, he noted that
NAVFAC SW put controls in place to validate and ensure invoices are reported in the
correct period. The Commander also stated that NAVFAC SW would direct American
Systems Corporation to correct its previous reports in accordance with the
www.federalreporting.gov process whereby recipients (contractors) can request changes
to prior quarter data. American Systems Corporation has until August 1, 2012, to make
the corrections.

Our Response
Comments from the Commander, NAVFAC, were responsive, and no further comments
are required.

   2. Revise the data quality review process to include procedures that ensure
invoices submitted by the contractor are reported in the correct quarter.

NAVFAC SW Comments
The Commander, NAVFAC, responding on behalf of the Commanding Officer,
NAVFAC SW, agreed with the recommendation, stating that a data quality review
process is in place to verify whether invoice amount are reported in the correct quarter.
He recommended closure of this action item.

Our Response
Comments from the Commander, NAVFAC, were responsive, and no further comments
are required.

                                            32 

   3. Develop and implement procedures for data quality review process to
perform logic or spot checks on the contractor’s justification of the number of jobs
reported during the design phase.

NAVFAC SW Comments
The Commander, NAVFAC, responding on behalf of the Commanding Officer,
NAVFAC SW, agreed with the recommendation, stating that NAVFAC SW implemented
a centralized procedure for data quality reviews. He stated that the focal point obtains
quarterly reports from daily records showing the hours worked and compares that report
with the total hours reported for that quarter. The Commander added that the
administering contracting officer is required to verify and reconcile any discrepancies.
He recommended closure of this action item.

Our Response
Comments from the Commander, NAVFAC, were responsive, and no further comments
are required.

   4. Update the Standard Procurement System to ensure contract actions are
transferred to the Federal Procurement Data System for the awarded Advanced
Metering Infrastructure task orders.

NAVFAC SW Comments
The Commander, NAVFAC, responding on behalf of the Commanding Officer,
NAVFAC SW, agreed with the recommendation and stated that the Standard
Procurement System has mechanisms in place to ensure contract action reports are
transferred to the Federal Procurement Data System. He added that a system glitch
prevented the CARs from being reported and has been addressed. To ensure contract
actions are reported and any missing CARs are corrected, the Commander stated that the
Electronic Application (eApps) team implemented a process to pull a “Missing CAR”
report from the Standard Procurement System on a bimonthly basis. The Commander
also stated that the contract specialists are instructed to contact the eApps team regarding
problems finalizing a CAR when releasing an award. The eApps team is conducting a
thorough review of the modifications identified by DoD OIG to ensure all actions are
accounted for and reported, and NAVFAC SW ensure corrections are completed by
June 2012.

Our Response
Comments from the Commander, NAVFAC, were responsive, and no further comments
are required.




                                             33 

   5. Develop procedures to monitor contract actions entered into the Standard
Procurement System, which transfers those actions to Federal Procurement Data
System.

NAVFAC SW Comments
The Commander, NAVFAC, responding on behalf of the Commanding Officer,
NAVFAC SW, agreed with the recommendation, stating that a process was implemented
for the eApps team to monitor contract actions by pulling “Missing CAR” report from the
Standard Procurement System on a bimonthly basis, and any missing CARs are
corrected. The Commander also stated that the contract specialists are instructed to
contact the eApps team regarding problems finalizing a CAR when releasing an award.
He recommended closure of this action item.

Our Response
Comments from the Commander, NAVFAC, were responsive, and no further comments
are required.




                                          34 

Appendix A. Scope and Methodology
We conducted this performance audit from March 2011 through March 2012 in
accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objectives.
We believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.

We selected one Recovery Act Facilities, Sustainment, Restoration, and Modernization
project at Port Hueneme, California for review. The AMI project throughout Navy
Region Southwest California was valued at $24.8 million. We expanded the scope of this
audit to include planning for the AMI project.

To evaluate the effectiveness of NAVFAC SW controls over the contractor’s planning,
performance, and reporting of the AMI project, we interviewed personnel at NAVFAC
Headquarters in Washington, D.C.; SCAN and NAVFAC ESC at Port Hueneme,
California; and NAVFAC SW in San Diego, California. We conducted site visits at
Naval Base Coronado (task order 6), Naval Base San Diego (task order 7), and Naval
Base Point Loma (task order 8) in San Diego, California. During our site visit, we
evaluated NAVFAC SW officials’ oversight over planning, contractor’s performance and
reporting.

Planning. We reviewed official contract files and documentation including economic
analysis, cost estimate, and DD Form 1391.

Recipient Reporting. We reviewed selected reports filed by the contractor on
www.federalreporting.gov. We verified contractor reporting elements contained on
www.recovery.gov for the third and fourth quarters of CY 2009, four quarters of
CY 2010, and the first quarter of CY 2011, and compared the information with contract
files and the FPDS. We also determined whether contractor officials were taking
corrective action against contractors who did not comply with FAR reporting
requirements

Project Execution. We determined whether the QA surveillance plans for the project
specified work requiring surveillance and the method of surveillance. We also reviewed
daily quality control reports from the contractor, project milestone schedules, contractor
submitted invoices, and inspection reports.

Small Business Oversight. We verified and determined that the contractor did not meet
the small business cost and size standards because the contractor is not qualified as a
small business. Therefore, the small business evaluation is not applicable to this audit.

Use of Computer-Processed Data
We relied on computer–processed data from the Federal Procurement Data
System–Next Generation, and used project data posted on the Recovery Act Web site

                                            35 

(www.FederalReporting.gov). The Federal Procurement Data System–Next Generation
is a dynamic, real-time database in which contracting officers can update data to include
new actions, modifications, and corrections. The Recovery Accountability and
Transparency Board established the Web site, www.FederalReporting.gov, as a
nationwide data collection system for contractors’ to report data required by the
Recovery Act. We compared data generated by each system with the DoD expenditure
plans, funding authorization documents, and contracting documentation to support the
audit conclusions. We determined that the data were sufficiently reliable for the purpose
of our audit.

Use of Technical Assistance
We did not use classical statistical sampling techniques that would permit generalizing
results to the total population because there were too many potential variables with
unknown parameters at the beginning of this analysis. The predictive analytic techniques
employed provided a basis for logical coverage not only of Recovery Act funding being
expended, but also of types of projects and types of locations of public works projects
managed by U.S. Army Corps of Engineers.

Prior Coverage
The Government Accountability Office (GAO), the DoD Inspector General (DoD IG),
and the Military Departments have issued reports and memoranda discussing DoD
projects funded by the Recovery Act. You can access unrestricted reports at
http://www.recovery.gov/accountability.

Further, GAO and the DoD IG have issued three reports specifically discussing Recovery
Act issues pertaining to this report. Unrestricted GAO reports can be accessed at
http://www.gao.gov. Unrestricted DoD IG reports can be accessed at
http://www.dodig.mil/audit/reports.

GAO
GAO Report No. GAO-10-581, “Increasing the Public’s Understanding of What Funds
Are Being Spent on and What Outcomes Are Expected,” May 27, 2010

DoD IG
DoD IG Report No. D-2011-055, “American Recovery and Reinvestment Act – U.S.
Army Corps of Engineers’ Data Quality Review Processes of Civil Works Funding for
the Period Ending December 31, 2009, Were Not Effective,” March 25, 2011

DoD IG Report No. D-2011-052, “American Recovery and Reinvestment Act–DoD Data
Quality Review Processes for the Period Ending December 31, 2009, Were Not Fully
Implemented,” March 23, 2011




                                           36 

Appendix B. Recovery Act Criteria
and Guidance
The following list includes the primary Recovery Act criteria and guidance (notes appear
at the end of the list):

   	 U.S. House of Representatives Conference Committee Report 111–16, “Making
      Supplemental Appropriations for Job Preservation and Creation, Infrastructure
      Investment, Energy Efficiency and Science, Assistance to the Unemployed, and
      State and Local Fiscal Stabilization, for the Fiscal Year Ending September 30,
      2009, and for Other Purposes,” February 12, 2009

   	 Public Law 111-5, “American Recovery and Reinvestment Act of 2009,”
      February 17, 2009

   	 OMB Memorandum M-09-10, “Initial Implementing Guidance for the American
      Recovery and Reinvestment Act of 2009,” February 18, 2009

   	 OMB Bulletin No. 09-02, “Budget Execution of the American Recovery and
      Reinvestment Act of 2009 Appropriations,” February 25, 2009

   	 White House Memorandum, “Government Contracting,” March 4, 2009

   	 White House Memorandum, “Ensuring Responsible Spending of Recovery Act
      Funds,” March 20, 2009

   	 OMB Memorandum M-09-15, “Updated Implementing Guidance for the
      American Recovery and Reinvestment Act of 2009,” April 3, 20091

   	 OMB Memorandum M-09-16, “Interim Guidance Regarding Communications
      With Registered Lobbyists About Recovery Act Funds,” April 7, 2009

   	 OMB Memorandum M-09-19, “Guidance on Data Submission under the Federal
      Funding Accountability and Transparency Act (FFATA),” June 1, 2009

   	 OMB Memorandum M-09-21, “Implementing Guidance for the Reports on Use
      of Funds Pursuant to the American Recovery and Reinvestment Act of 2009,”
      June 22, 20092

   	 OMB Memorandum M-09-24, “Updated Guidance Regarding Communications
      with Registered Lobbyists About Recovery Act Funds,” July 24, 2009

   	 OMB Memorandum M-09-30, “Improving Recovery Act Recipient Reporting,”
      September 11, 2009


                                           37 

   	 OMB Office of Federal Procurement Policy, “Interim Guidance on Reviewing
      Contractor Reports on the Use of Recovery Act Funds in Accordance with FAR
      Clause 52.204-11,” September 30, 2009

   	 OMB Memorandum M-10-08, “Updated Guidance on the American Recovery
      and Reinvestment Act- Data Quality, Non–Reporting Recipients, Reporting of
      Job Estimates,” December 18, 2009

   	 OMB Memorandum M-10-14, “Updated Guidance on the American Recovery
      and Reinvestment Act,” March 22, 2010

   	 Presidential Memorandum “Combating Noncompliance with Recovery Act
      Reporting Requirements,” April 6, 2010

   	 OMB Memorandum M-10-17, “Holding Recipients Accountable for Reporting
      Compliance under the American Recovery and Reinvestment Act,” May 4, 2010

   	 OMB Memorandum M-10-34, “Updated Guidance on the American Recovery
                                                2
      and Reinvestment Act,” September 24, 2010

   	 Federal Acquisition Regulation, subpart 4.6, “Contract Reporting,” March 2005

   	 NAVFAC P-442, “Economic Analysis Handbook,” October 1993

   	 Office of the Chief of Naval Operations Naval Instructions 11010.20G, “Facilities
      Projects Instruction,” October 14, 2005




Notes
        1
            Document provides Government-wide guidance for carrying out programs and activities enacted in the American
            Recovery and Reinvestment Act of 2009. The guidance states that the President’s commitment is to ensure that public
            funds are expended responsibly and in a transparent manner to further job creation, economic recovery, and other
            purposes of the Recovery Act.

        2
            Document provides Government-wide guidance for carrying out the reporting requirements included in Section 1512 of
            the Recovery Act. The reports will be submitted by contractors beginning in October 2009 and will contain detailed
            information on the projects and activities funded by the Recovery Act.




                                                                38 

Appendix C. AMI Organizational Structure





NAVFAC Headquarters. The program manager is located at NAVFAC Headquarters, which is an Echelon II
Command. NAVFAC headquarters has the responsibility for program management and creating policy and
guidance.

SCAN. SCAN is responsible for awarding the contract and delegating responsibility for tracking and
reporting. Additionally, they are responsible for appointing the contracting officer representative as well as
assigning administrative contracting officer at each FEAD.

NAVFAC ESC. The project manager is located at NAVFAC ESC, which is an Echelon III command. ESC
provides NAVFAC commands with specialized expertise for energy projects as requested by the NAVFAC
Energy Office. The NAVFAC ESC project manager is responsible for managing the AMI contract and
delivery orders to provide technical direction and discussion as necessary with respect to the specifications or
statement of work, and monitoring the performance of work under the contract. The ESC project manager is
also responsible for bringing to the attention of the contracting officer any significant deficiencies in the
contractor’s performance or other actions, which could jeopardize the contract’s performance.

NAVFAC SW. NAVFAC SW is responsible for integrating planning, programming and execution of
facilities engineering to supported commands. NAVFAC SW officials prepared the DD Form 1391
planning document to secure funding for the AMI project. NAVFAC SW is also responsible for providing
oversight for the overall execution of the AMI project, conducting data quality reviews for contractors’
reported data, and verifying that contract actions they entered into the Standard Procurement System
properly transferred to FPDS.

NAVFAC SW FEAD. FEADs are responsible for the execution of the project, to include the quality
assurance oversight. Each FEAD has an appointed administrative contracting officer to perform contract
administration functions and duties.



                                                  39 

Appendix D. Recovery Act Reporting
The Recovery Act defines a contractor as any entity receiving Recovery Act funds
directly from the Federal Government through contracts, grants, or loans. Prime
contractors of recovery funds are required, within 10 days after the end of each calendar
quarter, to report:

       the total amount of funds received, expended, or obligated;
       a description of projects or activities; and
       estimated number of jobs created or retained.

The RATB established a nationwide data collection system at www.federalreporting.gov
for contractors to report information required by the Recovery Act. Also, the RATB
established a Web site to make reported information available for the public not later than
30 days after the end of each quarter on www.recovery.gov.

OMB Memorandum M-09-21, “Implementing Guidance for the Reports on Use of Funds
Pursuant to the American Recovery and Reinvestment Act of 2009,” June 22, 2009,
provides information on key activities and timelines for contractor submitting quarterly
reports and Federal agencies reviewing the data in the reports. The memorandum
requires contractors of Recovery Act funds and reviewing Federal agencies to register at
www.FederalReporting.gov before submitting or reviewing contractor reports. The
Federal agencies should complete the reporting and review period within 30 days. The
following table depicts the contractor reporting time and key reporting activities.

                        Table. Contractor Reporting Timeline




                                   Source: OMB M-09-21.

                                            40 

The OMB guidance requires Federal agencies to develop internal policies and procedures
for reviewing reported data and to perform a limited data quality review (for example,
accuracy, completeness, and timely reporting of information) to identify material
omissions or significant reporting errors and to notify the contractor of the need to make
appropriate and timely changes. Material omissions are defined as instances where the
recipient does not report the required data or reported information is not responsive to the
data requests, resulting in significant risk that the public is not fully informed about the
status of a Recovery Act project or activity. Significant reporting errors are defined as
those instances where the recipient does not report data accurately and such erroneous
reporting results in significant risk that the public would be misled or confused by the
recipient report.




                                            41 

Department of the Navy Comments             )LQDO5HSRUW
                                            5HIHUHQFH




                   Click to add JPEG file




                                  42
                         Redirected to
                         Commander, NAVFAC




Click to add JPEG file
                         Renumbered as
                         Recommendation
                         B.2.a




                 43
                         Renumbered as
                         Recommendation
                         B.2.b




Click to add JPEG file



                         Renumbered as
                         Recommendation
                         B.2.c




                 44
                         Redirected to
                         Commander, NAVFAC
                         and Renumbered as
                         Recommendation B.1.




Click to add JPEG file




                 45
Click to add JPEG file




                 46
Click to add JPEG file




                 47
Click to add JPEG file




                 48
Click to add JPEG file




                 49
